                            SOCIAL SECURITY
                            Office of the Inspector General

                                     March 1, 2010



The Honorable Claire McCaskill
United States Senate
Washington, D.C. 20515

Dear Senator McCaskill:

In an August 4, 2009 letter, you asked that we determine whether the Social Security
Administration (SSA) is dedicating adequate resources to address the pending hearings
backlog in the Kansas City Region and, more specifically, the State of Missouri. To
address these issues, we reviewed pending hearing claims reports and related data;
analyzed hearing office staffing and productivity reports; assessed the status of various
initiatives aimed at reducing the pending hearings backlog; and spoke to management
and staff in Missouri hearing offices, the Kansas City Regional Chief Administrative Law
Judge’s office, and the Office of Disability Adjudication and Review’s Headquarters.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. The report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue



              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT


   Hearing Office Backlogs
         in Missouri

         A-12-10-21039




          March 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) is
dedicating adequate resources to address the pending hearings backlog in the Kansas
City Region and, more specifically, the State of Missouri.

BACKGROUND
Senator Claire McCaskill’s August 4, 2009, letter enumerated a number of concerns
regarding the hearings workload at hearing offices in the Kansas City Region, 1 and
specifically in Missouri, including the average age of claims awaiting a hearing, the
average processing time for closed hearing claims, and the number of administrative
law judges (ALJ) dedicated to this workload. The Senator asked us to determine
whether the Agency’s backlog plans and ongoing initiatives are sufficient to ensure
disabled Missourians receive a fair share of the Agency’s resources.

Our review focused on both the Kansas City Region and hearing offices in Missouri.
The Kansas City Region has seven hearing offices, four of which are located in
Missouri. 2 Each of the remaining three States in the Region has one hearing office.
Individuals living in one State may also be served by a hearing office in another State.
For example, individuals living in Kansas City, Kansas, are served by the hearing office
in Kansas City, Missouri.

To accomplish our objective, we reviewed pending hearing claims reports and related
data; analyzed hearing office staffing and productivity reports; assessed the status of
various initiatives aimed at reducing the pending hearings backlog; and spoke to
management and staff in Missouri hearing offices, the Kansas City Regional Chief ALJ’s
office, and the Office of Disability Adjudication and Review’s (ODAR) Headquarters.3




1
    The Kansas City Region includes the States of Iowa, Kansas, Missouri, and Nebraska.
2
 In Fiscal Year (FY) 2009, the Missouri hearing offices processed about 69 percent of the backlog in the
Kansas City Region.
3
    See Appendix B for a further discussion of our Scope and Methodology.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                        1
                                                                Results of Review
In FYs 2008 and 2009, the pending hearing claims backlog and productivity trends in
the Kansas City Region were generally positive. For instance, over this period, the
number of pending hearing claims decreased by about 17 percent, and the average age
of the pending hearing claims decreased by over 12 percent. In addition, in FY 2009,
the Kansas City Region had the highest disposition rate in the nation by producing
about 4 percent more dispositions per day per ALJ than the national average. However,
while the Kansas City Region experienced a 4.5-percent decrease in average
processing time of closed hearing claims, the Region’s average processing time was
still 40 days above the national average.

We found that various initiatives designed to reduce the pending hearings backlog have
also assisted in directing resources to the Kansas City Region. For example, the
Commissioner’s ALJ Hiring initiative, in combination with additional funding, led to
improved staffing ratios and staffing mix ratios in the Region’s hearing offices.
Moreover, after the FY 2009 hiring, the number of ALJs in the Region’s hearing offices
more closely matched the percent of the pending hearing claims assigned to the
Region. ODAR also plans to build a National Hearing Center (NHC) in St. Louis in
FY 2010 as well as open a new hearing office in Missouri in FY 2011. In addition, the
Service Area Realignment (SAR), NHC, and Video Hearing initiatives have helped to
rebalance pending hearing claims in the heavily impacted hearing offices in the Region.
Finally, hearing offices in Missouri sent older hearing claims to the disability
determination services (DDS) for a new review under the Informal Remands initiative.
However, in our conversations with regional and hearing office managers, we were told
hearing office space limitations and DDS procedures in Missouri continue to present
challenges.

PENDING HEARINGS BACKLOGS

In FYs 2008 and 2009, the Kansas City Region made progress in working down its
pending hearing claims backlog. The Region experienced about a 17-percent decrease
in the number of pending hearing claims and about a 12-percent drop in the average
age of its pending hearing claims backlogs.

Trends in the Number of Pending Hearing Claims

Between FYs 2008 and 2009, the Kansas City Region experienced almost a 17-percent
decrease in its pending hearings backlog (see Table 1). 4 This is the largest decrease
among ODAR’s 10 Regions. Six of the 10 Regions experienced a decrease in the
number of pending hearing claims, while the national pending hearing claims backlog
decreased by about 5 percent during this period. The Atlanta Region had the second
largest decrease in pending hearing claims at about 13 percent, followed by the

4
    We will discuss some of the factors contributing to this decrease later in this report.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                           2
Chicago Region at about 12 percent. The percent of pending hearing claims at the
NHCs increased by about 418 percent as thousands of pending hearing claims have
been transferred from the Regions to the NHCs over the last 2 FYs. 5 The pending
hearings backlog in the Boston Region increased by about 43 percent because hearing
claims were transferred into the Region from other heavily impacted Regions. 6 For a
further explanation of hearing claim transfers, see the SAR initiative section of this
report.

          Table 1: Trends in the Number of Pending Hearing Claims per Region
                                (At the end of FYs 2008 and 2009)
                                    Number of           Number of
                                     Pending             Pending
                                Claims per Region Claims per Region                  Percent
             Region              End of FY 2008       End of FY 2009                 Change
    Kansas City                       39,622               33,001                     - 16.7
    Atlanta                          216,407              188,566                     - 12.9
    Chicago                          143,188              125,820                     - 12.1
    Seattle                           24,605               22,117                     - 10.1
    New York                          71,295               65,310                       - 8.4
    Dallas                            72,485               69,971                       - 3.5
    San Francisco                     77,829               79,419                         2.0
    Philadelphia                      73,426               77,273                         5.2
    Denver                            19,934               21,544                         8.1
    Boston                            19,780               28,199                       42.6
    National Hearing Centers            2,242              11,602                     417.5
    Totals                           760,813              722,822                       - 5.0

Trends in Average Age of Pending Hearing Claims

During the last 2 FYs, the average age of the pending hearing claims in the Kansas City
Region decreased by over 12 percent, or an average of 41 days per claim (see Table
2). Overall, during this period, the average age of the pending hearing claims in 9 of
ODAR’s 10 Regions decreased. The Boston Region was the only exception, with the
average age of pending hearing claims increasing by more than 12 percent. 7 Despite
the increase in its average age of pending hearing claims, the Boston Region still
maintained the lowest average age of pending claims among all Regions, while the
Chicago Region had the highest average age. As discussed in our September 2009




5
  National Hearing Centers using video conferencing technology are operating in Albuquerque, New
Mexico; Baltimore, Maryland; Chicago, Illinois; and Falls Church, Virginia. We will discuss the NHC
initiative later in this report.
6
 As discussed in our September 2009 report, Aged Claims at the Hearing Level (A-12-08-18071), over
6,000 aged claims were transferred from other Regions into the Boston Region for processing.
7
    Id.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                   3
report, 8 since the end of FY 2007, ODAR has focused hearing offices’ efforts on
processing the oldest hearing claims in their pending backlogs, thereby reducing the
average age of pending hearing claims nationwide.

          Table 2: Trends in Average Age of Pending Hearing Claims per Region
                                (At the end of FYs 2008 and 2009)
                                     Average Age of      Average Age of
                                    Pending Claims      Pending Claims
                                     End of FY 2008      End of FY 2009                  Percent
              Region                     (days)              (days)                      Change
    National Hearing Centers              589                 468                         - 20.5
    Seattle                               338                 289                         - 14.5
    Atlanta                               332                 284                         - 14.5
    Kansas City                           332                 291                         - 12.3
    Chicago                               374                 335                         - 10.4
    San Francisco                         282                 262                           - 7.1
    New York                              284                 269                           - 5.3
    Philadelphia                          248                 236                           - 4.8
    Dallas                                259                 250                           - 3.5
    Denver                                270                 267                           - 1.1
    Boston                                208                 234                           12.5
    National Average                      311                 282                           - 9.3
Note: The national average represents all pending hearing claims regardless of the specific region or
NHC responsible for each claim.

DISPOSITION RATES AND AVERAGE PROCESSING TIMES OF HEARING CLAIMS

In FY 2009, the Kansas City Region led the nation in disposition rate (number of
dispositions per day per ALJ) of closed hearing claims. However, while the Kansas City
Region experienced a decrease in average processing time of closed hearing claims, its
processing time was still 40 days above the national average.

Disposition Rate for Closed Hearing Claims

In FY 2009, the Kansas City Region had the highest disposition rate on closed hearing
claims at 2.47, which was about 4 percent higher than the national average of 2.37 (see
Table 3).




8
    Id.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                     4
        Table 3: National Ranking Disposition Rate of Closed Hearing Claims
                                      (At the end of FY 2009)
                          Regional Office             Disposition Rate
                            Kansas City                     2.47
                              Atlanta                       2.44
                             New York                       2.43
                            Philadelphia                    2.43
                               Dallas                       2.40
                              Seattle                       2.26
                              Denver                        2.24
                              Boston                        2.23
                           San Francisco                    2.21
                              Chicago                       2.14
                         National Average                   2.37
                    Note: The national average represents all closed hearing claims
                    regardless of the specific region or NHC responsible for each claim.

Four of the hearing offices in the Kansas City Region had disposition rates above the
national average, and three hearing offices (two in Missouri) were below the national
average (see Table 4). 9

                  Table 4: Disposition Rates of Closed Hearing Claims
                        in Kansas City Region’s Hearing Offices
                                       (At the end of FY 2009)
              Hearing Office                  State            Disposition Rate
                 St. Louis                  Missouri                2.85
               Creve Coeur                  Missouri                2.74
                 Wichita                     Kansas                 2.68
             West Des Moines                  Iowa                  2.46
                 Omaha                      Nebraska                2.29
               Kansas City                  Missouri                2.06
                Springfield                 Missouri                2.01

Average Processing Time of Closed Hearing Claims

The Kansas City Region experienced a 4.5-percent decrease in average processing
time of closed hearing claims (see Table 5), a percent consistent with the national
average. However, the Region’s processing time is still 40 days above the national
average.




9
 See Appendix C for a list showing the FY 2009 disposition rates and average processing times for all
142 hearing offices.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                     5
                      Table 5: Trends in Average Processing Time of
                            Closed Hearing Claims per Region
                                (At the end of FYs 2008 and 2009)
                                    Average Processing Average Processing
                                      Time of Closed        Time of Closed
                                          Claims               Claims                      Percent
             Region                   End of FY 2008        End of FY 2009                 Change
 Dallas                                     445                   398                       - 10.6
 New York                                   519                   465                       - 10.4
 Chicago                                    665                   615                         - 7.5
 Seattle                                    561                   531                         - 5.3
 Boston                                     373                   356                         - 4.6
 Kansas City                                556                   531                         - 4.5
 Atlanta                                    551                   528                         - 4.2
 Philadelphia                               393                   402                           2.3
 Denver                                     429                   447                           4.2
 San Francisco                              436                   472                           8.3
 National Hearing Centers                   615                   687                         11.7
 National Average                           514                   491                         - 4.5
Note: The national average represents all processed hearing claims regardless of the specific region or
      NHC responsible for each claim.

In terms of the average processing time for closed hearing claims at each of the Kansas
City Region’s hearing offices, two hearing offices were below the national average,
while five exceeded the national average of 491 days (see Table 6).

            Table 6: Average Processing Times of Closed Hearing Claims
                      in Kansas City Region’s Hearing Offices
                                       (At the end of FY 2009)
                                                                  Average Processing
                 Hearing Office                State                  Time (days)
              Wichita                         Kansas                     412
              St. Louis                      Missouri                    448
              West Des Moines                  Iowa                      526
              Creve Coeur                    Missouri                    552
              Omaha                          Nebraska                    581
              Kansas City                    Missouri                    629
              Springfield                    Missouri                    654

STAFFING

ODAR has been able to increase both ALJ and support staff levels in the Kansas City
Region, thereby improving overall staffing ratios in the hearing offices. In addition, the
ratio of ALJs to backlogs has improved, and ODAR plans to open more hearing offices
in the Kansas City Region, including one in Missouri.




Hearing Office Backlogs in Missouri (A-12-10-21039)                                                       6
ALJ and Support Staff Hiring

Since 2007, the Agency has funded the Commissioner’s ALJ Hiring initiative to hire
additional ALJs and increase ODAR’s adjudicatory capacity. In FY 2009, the American
Recovery and Reinvestment Act of 2009 provided SSA $500 million to process its
increasing retirement and disability backlogs. Using Recovery Act funds, ODAR hired
550 new employees as well as 35 ALJs in FY 2009. In addition to these 585 new hires,
ODAR hired 899 support staff and 112 ALJs in the regions and NHCs using funds from
its FY 2009 appropriation. 10

Staffing Ratios

In March 2009, SSA’s Commissioner testified 11 that about 4.5 staff per ALJ (referred to
as the staffing ratio) was necessary to maximize the number of legally sufficient
hearings and decisions by ALJs. In this context, “staff” represents both decision writers
and other support staff. Moreover, in a FY 2009 memorandum, 12 ODAR’s Deputy
Commissioner recommended the Regions hire 1.5 decision writers per ALJ and
2.5 other support staff per ALJ (referred to as the staffing mix ratios), thereby giving
additional definition to the Commissioner’s staffing ratio goal. 13

We found that all but one of the hearing offices in the Kansas City Region had staffing
ratios that exceeded the Commissioner’s target of 4.5 staff per ALJ at the end of
FY 2009 (see Table 7). 14 Only the St. Louis Hearing Office was below the target, but
the office still maintained a minimum level of 4.0 support staff per ALJ.




10
  SSA, Office of the Inspector General (OIG), The Office of Disability Adjudication and Review's Staffing
Plans Under the American Recovery and Reinvestment Act (A-12-09-29140), December 2009.
11
  Hearing on Disability Backlogs and Related Service Delivery Issues, Prepared Testimony of
Michael J. Astrue, Commissioner of Social Security, before the Subcommittee on Social Security and
Income Security and Family Support, House Committee on Ways and Means, March 24, 2009.
12
  Memorandum from the Deputy Commissioner for Disability Adjudication and Review to Regional Chief
Administrative Law Judges and Regional Management Officers, FY 2009 Hiring Authority and Guidance –
Action, February 27, 2009.
13
  ODAR began calculating the decision writers per ALJ and other support staff per ALJ ratios in
January 2009. In November 2009 staffing guidance to the Regions, ODAR’s Deputy Commissioner
advised the Regions to increase the decision writers per ALJ ratio to 1.85 in FY 2010.
14
  ODAR’s biweekly staffing report reflects a snapshot of an office that may vary depending on issues
such as hiring, training, and attrition at a particular point in time.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                         7
          Table 7: Staffing Ratio per ALJ in Kansas City Region Hearing Offices
                                       (At the end of FY 2009)
                Hearing Office           State         Support Staff Per ALJ Ratio
              Omaha                    Nebraska                   6.60
              West Des Moines            Iowa                     5.70
              Wichita                   Kansas                    4.71
              Springfield              Missouri                   4.63
              Creve Coeur              Missouri                   4.60
              Kansas City              Missouri                   4.51
              St. Louis                Missouri                   4.24
              Target                                              4.50

Staffing Mix

Most hearing offices in the Kansas City Region met or exceeded ODAR’s 1.5 decision
writers per ALJ staffing mix ratio target (see Table 8). The only exception was the
St. Louis Hearing Office, whose staffing mix ratio was slightly less than the target. In a
January 2010 report, 15 we found that hearing offices that met or exceeded the
1.5 decision writers per ALJ staffing mix target had, on average, almost a 9 percent
higher productivity rate than those hearing offices with a ratio less than the target. 16

     Table 8: Decision Writer per ALJ Ratio in Kansas City Region Hearing Offices
                                       (At the end of FY 2009)
                Hearing Office           State       Decision Writers per ALJ Ratio
              West Des Moines            Iowa                     2.00
              Springfield              Missouri                   1.83
              Wichita                   Kansas                    1.71
              Creve Coeur              Missouri                   1.64
              Kansas City              Missouri                   1.55
              Omaha                    Nebraska                   1.50
              St. Louis                Missouri                   1.45
              Target                                              1.50

Finally, we examined the staffing mix ratio of other support staff per ALJ for hearing
offices in the Kansas City Region and found that every office exceeded ODAR’s
national target of 2.5 other support staff per ALJ (see Table 9). In our earlier review, we
did not find productivity differences based on the other support staffing mix ratio. 17


15
     SSA, OIG, Hearing Office Performance and Staffing (A-12-08-28088), January 2010.
16
   In our August 2008 report, we noted ALJs had varying levels of productivity (both high and low
productivity) for internalized reasons, such as motivation and work ethic. In the report, we also identified
factors that can impact ALJ and hearing office productivity and processing times, including factors related
to DDS case development, staff levels, hearing dockets, favorable rates, individual ALJ preferences, and
Agency processes. See SSA, OIG, Congressional Response Report: Administrative Law Judge and
Hearing Office Performance (A-07-08-28094), August 2008.
17
     SSA, OIG, Hearing Office Performance and Staffing (A-12-08-28088), January 2010.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                        8
                         Table 9: Other Support Staff per ALJ Ratio
                          in Kansas City Region’s Hearing Offices
                                       (At the end of FY 2009)
                                                                   Other Support Staff
                  Hearing Office               State                 Per ALJ Ratio
               Omaha                         Nebraska                     5.10
               West Des Moines                 Iowa                       3.70
               Wichita                        Kansas                      3.00
               Creve Coeur                   Missouri                     2.96
               Kansas City                   Missouri                     2.96
               Springfield                   Missouri                     2.80
               St. Louis                     Missouri                     2.78
               Target                                                     2.50

Available ALJs Compared to Pending Hearing Claims Backlog per Region

We found that the allocation of available ALJs in the Kansas City Region closely
matched the Region’s share of the national pending hearings backlog (see Table 10).
At the end of FY 2009, the Region had 4.4 percent of SSA’s available ALJs and was
assigned 4.6 percent of the national pending hearings backlog, resulting in a negative
gap 18 of 0.2 percent. Two other Regions had much larger negative gaps in their share
of available ALJs to process their pending hearings backlog: the Chicago Region had
the greatest negative gap at 2.6 percent, followed by the Atlanta Region with a negative
gap of 1.6 percent.

          Table 10: Available ALJs Compared to Pending Hearing Claims per Region
                                      (At the End of FY 2009)
                                                     Percent of National
                                     Percent of       Pending Claims                Difference in
             Region                Available ALJs         Backlog                   Percent (Gap)
     Chicago                            14.8                17.4                         -2.6
     Atlanta                            24.5                26.1                         -1.6
     Denver                               2.5                 3.0                        -0.5
     Kansas City                          4.4                 4.6                        -0.2
     San Francisco                      10.9                11.0                         -0.1
     Boston                               4.0                 3.9                       +0.1
     New York                             9.2                 9.0                       +0.2
     Seattle                              3.2                 3.0                       +0.2
     National Hearing Centers             2.3                 1.6                       +0.7
     Philadelphia                       11.6                10.7                        +0.9
     Dallas                             12.6                  9.7                       +2.9
     Totals                              100                 100




18
  A negative gap occurs when the percent of available ALJs in the Region is less than the percent of the
pending claims in the Region. A positive gap occurs when the percent of available ALJs in the region is
higher than the percent of pending claims in the region.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                        9
With the addition of new resources, ODAR is planning to add two offices to the Kansas
City Region in the next 2 years: Topeka, Kansas, in FY 2010 and Columbia, Missouri, in
FY 2011. ODAR also plans to open a new NHC 19 in St. Louis, Missouri, in FY 2010. 20

INITIATIVES DESIGNED TO REDUCE AND ELIMINATE THE HEARINGS BACKLOG

ODAR has implemented a number of initiatives to assist Regions in managing their
pending hearings backlogs, including (1) the SAR initiative, (2) the NHC and Video
Hearing initiatives, and (3) the Informal Remand initiative.

SAR Initiative

The SAR initiative, implemented in FY 2007, used a two-phase strategy. The first phase
used permanent transfer of hearing claims between Regions or within the same Region.
Under this initiative, pending hearings backlogs in heavily impacted hearing offices were
transferred to less impacted Regions. Phase two involved realigning specific SSA field
offices from high impact Regions to hearing offices in less impacted Regions.

In FY 2008, ODAR used the SAR initiative to rebalance pending hearing claims in
heavily impacted hearing offices in the Kansas City Region. Claims were processed
and heard in hearing offices in a different part of the country than where the claimant
lived. For instance, in FY 2008, the Kansas City, Missouri, Hearing Office sent
approximately 3,200 claims to the San Francisco Region for processing (see Table 11).
In other situations, pending claims were transferred internally from one part of the
Region to another for processing. For example, 220 claims were transferred within the
Kansas City Region from the Kansas City Hearing Office’s service area in Nevada,
Missouri, to the Wichita Hearing Office in Kansas.

                  Table 11: Hearing Claims Transferred to the San Francisco
                    Region from the Kansas City, Missouri, Hearing Office
                                                  (FY 2008)
                                                                  Number of Claims
                      Receiving Hearing Office                      Transferred
                   Long Beach, California                              1,213
                   San Diego, California                                  766
                   Tucson, Arizona                                     1,209
                   Total                                                3,188

According to ODAR, in FY 2009 the Atlanta Region transferred the most hearing claims
(12,474) to other Regions for processing, while the Kansas City Region transferred
almost 3,600 claims (see Figure 1) to other Regions. 21 Over 18,000 hearing claims
were transferred to the NHCs in FY 2009.
19
  The NHC workload is directed by ODAR Headquarters and is not under the control of the Regional
Chief ALJ, as is the case with hearing offices.
20
     See Appendix D for a map illustrating the location of the new hearing offices.
21
     These figures represent net transfers from each region.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                10
                        Figure 1: Permanent Hearing Claim Transfers per Region in FY 2009

                             Region I: Boston                                            895
                          Region II: New York                               -1,176
                       Region III: Philadelphia   -12,474                                752
   Region/Location




                            Region IV: Atlanta
                           Region V: Chicago      -10,671
                             Region VI: Dallas                                                                            17,017
                      Region VII: Kansas City                      -3,572
                           Region VIII: Denver                                            1,839
                     Region IX: San Francisco                  -5,841
                             Region X: Seattle                   -5,150
                     National Hearing Centers                                                                                  18,381

                                                                      00




                                                                                               0
                                              0




                                                           0




                                                                                                          00




                                                                                                                    00




                                                                                                                              00
                                                                                     0



                                                                                             00
                                            00




                                                         00




                                                                    ,0




                                                                                                        ,0




                                                                                                                  ,0




                                                                                                                            ,0
                                          5,




                                                       0,




                                                                                           5,
                                                                 -5




                                                                                                     10




                                                                                                               15




                                                                                                                         20
                                       -1




                                                    -1




                                                                             Number of Claims Transferred

Note: The red bars indicate hearing claims transferred to the Region, and the white bars indicate claims
      transferred from the Region. All figures represent the net transfers in and out of each Region.

The Kansas City Region also realigned some of its service areas. For instance, in
October 2008, new hearing claims being filed in the Joplin and Nevada, Missouri,
service areas were processed by the San Diego, California, Hearing Office. In FY 2009,
when the San Francisco Region was facing its own pending hearings backlog (see
Figure 1), these service areas were realigned with the Dallas Region. Finally, by the
end of FY 2009, these service areas were moved back to the Kansas City Region.

NHC and Video Hearing Initiatives

ODAR implemented the NHC and Video Hearing initiatives to assist in processing
pending hearing claims in heavily impacted hearing offices. Under these initiatives,
pending hearing claims from heavily impacted hearing offices are transferred to the
NHCs for processing. All pending hearing claims processed by the NHCs use video
technology. ALJs stationed at the NHCs hear claims from claimants and their
representatives in offices from all over the country that are equipped with video
technology. As noted earlier, ODAR is operating four NHCs nationwide, with a fifth
NHC set to open in St. Louis, Missouri, in FY 2010.

ODAR reported that 2,700 hearing claims were transferred from Missouri hearing offices
to the NHCs in FY 2009. Approximately 2,000 hearing claims were sent to the
Albuquerque NHC, and another 700 claims were sent to the Chicago NHC.

Informal Remands

The Informal Remand initiative was developed to increase ODAR’s adjudicatory
capacity and reduce the paper case backlog (predominantly aged hearing claims) by
having the DDS reopen certain claims based on specific profiles established by SSA’s
Office of Quality Performance. DDSs review the claims, and, in each case where the


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                                                     11
DDS makes a fully favorable determination, the claim is allowed by the DDS while the
hearing is dismissed by the hearing office. If the DDS cannot make a favorable
decision, the claim is returned to the hearing office and continues to go through the
normal hearing process (with updated medical information). Although the initiative was
intended to reduce the backlog of paper hearing claims, it was extended to electronic
claims in March 2008.

According to the Deputy Commissioner for Operations’ Office of Disability
Determinations, the Missouri DDS received 1,551 informal remand claims in FY 2009
and made fully favorable decisions on 419 claims, a 27-percent approval rate. Of the
remaining claims, 1,126 were returned to hearing offices as “no decision” claims, and
6 were still pending in the DDS. The Kansas DDS and the Mid-America Program
Service Center Federal Disability Unit in Kansas City also assisted the Missouri hearing
offices with these remands. Overall, ODAR reported that 1,062 cases were allowed at
the DDS level and dismissed in Missouri hearing offices in FY 2009 because of this
initiative.

KANSAS CITY REGIONAL AND HEARING OFFICE MANAGEMENT TEAMS

We interviewed managers at the four Missouri hearing offices as well as the Kansas
City Regional Office to obtain their input on how additional resources and the initiatives
have affected their ability to process pending hearings backlogs. While the managers
were pleased with how the transfer process was assisting with backlogs, they stated
that space limitations and the extra hearing claims being generated from the DDS under
the Disability Redesign Prototype 22 were hindering efforts to reduce the backlog.

The Creve Coeur Hearing Office management team believes that increased dispositions
at Creve Coeur are the result of the addition of new ALJs in recent years and increased
emphasis on improving performance. According to the management team, the Creve
Coeur pending hearings backlog has also been reduced under the SAR initiative.
Specifically, approximately 2,400 cases were transferred from the Creve Coeur Hearing
Office to the Oklahoma City Hearing Office. In addition, new receipts from the
Columbia, Missouri, service area were also being processed by the Oklahoma City
Hearing Office.

Managers at the Springfield Hearing Office stated that the Disability Redesign Prototype
and office space limitations inhibited the reduction of pending hearings backlogs. The
management team believed the Prototype slowed processing and contributed to the
backlog. For instance, space limitations at the hearing office required that two attorneys
share one office, and a new judge had been placed at one end of the supply room. The
Regional Office and ODAR Headquarters have assisted Springfield by permanently
transferring some hearing claims to other parts of the Region as well as realigning
service areas in West Plains and Joplin, Missouri.

22
  The Disability Redesign Prototype was enacted in 1999 in 10 States. Under the Prototype, the
reconsideration step of the appeals process was eliminated. As a result, appeals are sent for a hearing
decision as the first step in the appeals process.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                       12
Managers at the Kansas City Hearing Office also reported space limitations requiring
that two attorneys work in cubicles until two offices are built. The management team
reported that the average processing time at Kansas City worsened in FY 2009
because of the focus on processing aged hearing claims—one of the Commissioner’s
initiatives. At the same time, the number of dispositions increased because two new
ALJs were hired and an ALJ with lower productivity retired. 23

The St. Louis Hearing Office Chief ALJ explained that the NHC initiative had helped
process the Hearing Office’s pending hearings backlog. The NHC in Chicago took
100 hearing claims per month from the Hannibal, Missouri, remote site, resulting in
about 700 claims being sent to the NHC in FY 2009.

The Kansas City Regional management team stated that the Region is experiencing a
12 to 14 percent increase in hearing receipts in FY 2010 because of the downturn in the
local economy. However, hiring new employees has assisted the Region in reducing
the backlog of pending hearing claims. Nevertheless, retaining ALJs in the more
remote locations has been difficult. Management stated that after serving 90 days in a
duty station, an ALJ may be eligible to transfer to another less remote location. Finally,
the Regional Office management team stated that Missouri’s Prototype status slows
hearing claim processing time in Missouri hearing offices. The managers believe
returning the reconsideration step to the DDS process would help to reduce the pending
hearings backlog.




23
  The Springfield and Kansas City Hearing Offices had the lowest productivity and worst timeliness in
FY 2009. However, both were assisted with case transfers to other parts of the Region as well as service
area realignments, as noted here and earlier in this report.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                                   13
                                                              Conclusions
The pending hearings backlog in the Kansas City Region and the State of Missouri is
improving with the addition of resources as well as better management of the backlog.
We found that both the number of pending hearing claims and the average age of the
pending hearing claims in the Region have decreased over the last 2 years. In addition,
hearing offices in the Region have steadily improved the average processing time on
closed hearing claims.

The Region has benefited from additional staffing as well as a number of hearings
backlog initiatives. For instance, additional hiring led to improved staffing ratios and
staffing mix ratios in the Region’s hearing offices. In addition, using the SAR, NHC, and
Video Hearing initiatives, Missouri Hearing Offices have been able to transfer some of
their pending hearing claims to other Regions for processing. Also, the Informal
Remand initiative has helped the Region by returning older pending hearing claims to
the DDS for updated medical records, and, in some cases, a fully favorable decision.

Finally, we learned in our discussions with the management teams in the hearing offices
and Kansas City Region that active management of the pending hearings backlog has
shown promising results in providing more timely service to the claimants within the
Region, while space limitations and the Prototype continue to present challenges.




Hearing Office Backlogs in Missouri (A-12-10-21039)                                    14
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Fiscal Year 2009 Hearing Office Disposition Rates and Average
             Processing Times of Closed Claims

APPENDIX D – Planned New Hearing Offices and National Hearing Center




Hearing Office Backlogs in Missouri (A-12-10-21039)
                                                                       Appendix A

Acronyms
    ALJ                 Administrative Law Judge

    DDS                 Disability Determination Services

    FY                  Fiscal Year

    NHC                 National Hearing Center

    ODAR                Office of Disability Adjudication and Review

    SAR                 Service Area Realignment

    SSA                 Social Security Administration




Hearing Office Backlogs in Missouri (A-12-10-21039)
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed prior Office of the Inspector General reports related to processing hearing
    claims at hearing offices in the Kansas City Region and nationwide.
•   Reviewed the Agency’s backlog reduction initiatives to identify those related to the
    pending hearings backlog.
•   Examined the Office of Disability Adjudication and Review’s (ODAR) biweekly
    staffing reports to understand staffing ratios and the staffing mix in the Kansas City
    Region compared to the nation.
•   Reviewed ODAR’s Case Processing and Management System reports to compare
    the average age of pending hearing claims, average processing time of closed
    hearing claims, and disposition rates at hearing offices in Missouri to the nation. We
    also compared Missouri backlog statistics with ODAR’s Hearing Backlog Reduction
    Update Booklets and noted any differences.
•   Determined the number of Fiscal Year (FY) 2009 permanent hearing claim transfers
    to and from all regions and National Hearing Centers, as well as the Missouri
    hearing offices. We also examined service area realignments involving Missouri
    hearing offices in FY 2009 and the number and status of informal remands
    processed by Missouri hearing offices.
•   Determined the locations, planned opening dates, and estimated number of
    administrative law judges for new hearing offices and National Hearing Centers in
    the Kansas City Region and Missouri.
•   Interviewed the Kansas City Regional Office management team as well as
    managers at the Creve Coeur, Kansas City, Springfield, and St. Louis Hearing
    Offices in Missouri.

We found the disposition and average processing time data used in our review to be
sufficiently reliable to meet our audit objective. Due to time constraints, we did not
determine the reliability of the case transfer and informal remand counts provided by the
Agency. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit from August through
December 2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.




Hearing Office Backlogs in Missouri (A-12-10-21039)
                                                                      Appendix C

Fiscal Year 2009 Hearing Office Disposition
Rates and Average Processing Times of
Closed Claims
The Office of Disability Adjudication and Review (ODAR) ranks hearing office
performance by a number of criteria including dispositions per day per administrative
law judge (ALJ) (disposition rate) and average processing time. Table C-1 shows the
disposition rates and average processing times of closed hearing claims for ODAR’s
142 hearing offices in Fiscal Year (FY) 2009. The table is sorted by the disposition rate
and then the average processing time.

        Table C-1: FY 2009 Hearing Office Performance by Disposition Rate
                  and Average Processing Time of Closed Claims
       (Sorted on Dispositions per Day per ALJ and Average Processing Time)
                                                       Dispositions      Average
                                            Number      per Day per    Processing
 Count        Hearing Office      Region    of ALJs         ALJ           Time
   1   Ponce                         2          3           5.65           352
   2   Mayaguez                      2          1           3.77           394
   3   Harrisburg                    3          7           3.45           292
   4   Jericho                       2          8           3.38           446
   5   Greenville                    4         10           2.99           629
   6   Atlanta Downtown              4         14           2.91           536
   7   Seven Fields                  3          9           2.90           425
   8   Honolulu                      9          1           2.89           444
   9   St. Louis                     7         11           2.85           448
  10   Albany                        2          8           2.83           475
  11   Kingsport                     4          8           2.82           377
  12   Wilkes Barre                  3         11           2.81           435
  13   Brooklyn                      2         12           2.80           374
  14   Eugene                       10          7           2.80           526
  15   Nashville                     4          9           2.79           517
  16   Flint                         5          5           2.77           622
  17   Little Rock                   6         12           2.74           457
  18   Creve Coeur                   7         11           2.74           552
  19   Los Angeles Downtown          9          7           2.72           411
  20   Bronx                         2          7           2.72           620
  21   Long Beach                    9          6           2.69           437
  22   Wichita                       7          7           2.68           412
  23   Fort Smith                    6          6           2.66           393
  24   Alexandria                    6         10           2.64           444
  25   Minneapolis                   5         12           2.63           572
  26   Ft. Lauderdale                4         14           2.60           391



Hearing Office Backlogs in Missouri (A-12-10-21039)                                   C-1
                                                            Dispositions    Average
                                                  Number    per Day per    Processing
 Count          Hearing Office         Region     of ALJs       ALJ           Time
  27      Columbia                       4            9         2.60           636
  28      Shreveport                     6            8         2.59           334
  29      Johnstown                      3            7         2.58           458
  30      Spokane                        10           6         2.57           440
  31      Colorado Springs               8            5         2.56           467
  32      Charlotte                      4           11         2.56           525
  33      Orland Park                    5            8         2.56           556
  34      Jackson                        4           49         2.56           659
  35      Charleston                     3            9         2.55           352
  36      San Bernardino                 9            9         2.55           426
  37      New York                       2           12         2.54           455
  38      Tucson                         9            5         2.54           458
  39      Evansville                     5            5         2.54           499
  40      Greensboro                     4           10         2.54           622
  41      Fort Wayne                     5            8         2.54           653
  42      Huntington                     3            8         2.53           336
  43      Pittsburgh                     3            7         2.53           498
  44      Raleigh                        4           12         2.53           538
  45      Birmingham                     4           16         2.53           601
  46      Tulsa                          6            9         2.52           468
  47      Montgomery                     4           10         2.52           593
  48      Grand Rapids                   5            7         2.52           618
  49      San Juan                       2            8         2.51           281
  50      Paducah                        4            5         2.50           462
  51      Los Angeles West               9            7         2.49           547
  52      Oak Park                       5            7         2.49           674
  53      Metairie                       6            8         2.47           439
  54      Macon                          4            7         2.46           427
  55      Jacksonville                   4           14         2.46           498
  56      West Des Moines                7            6         2.46           526
  57      Chattanooga                    4           11         2.45           428
  58      McAlester                      6            2         2.45           495
  59      Middlesboro                    4            1         2.44           311
  60      Hattiesburg                    4           10         2.44           473
  61      Syracuse                       2           10         2.44           594
  62      Manchester                     1            8         2.43           381
  63      Dallas Downtown                6           12         2.43           408
  64      Albuquerque                    6            9         2.43           465
  65      Mobile                         4           14         2.43           528
  66      Tupelo                         4           10         2.42           497
  67      Providence                     1            6         2.41           352
  68      San Jose                       9            8         2.41           416
  69      Fort Worth                     6            8         2.39           337
  70      San Francisco                  9            7         2.39           489
  71      Philadelphia East              3           10         2.38           336
  72      Charlottesville                3            7         2.38           419


Hearing Office Backlogs in Missouri (A-12-10-21039)                               C-2
                                                            Dispositions    Average
                                                  Number    per Day per    Processing
 Count           Hearing Office        Region     of ALJs       ALJ           Time
  73      Norfolk                        3            7         2.37           404
  74      Orlando                        4           11         2.36           480
  75      Houston-Bissonnet              6           13         2.35           363
  76      Sacramento                     9           14         2.35           404
  77      Houston – Downtown             6           10         2.34           336
  78      San Antonio                    6           17         2.34           340
  79      Lexington                      4            8         2.34           465
  80      Memphis                        4           10         2.34           521
  81      Newark                         2           12         2.33           458
  82      Phoenix                        9            9         2.33           524
  83      Lansing                        5            7         2.33           636
  84      Stockton                       9            7         2.31           436
  85      Savannah                       4           10         2.31           520
  86      Richmond                       3            5         2.29           400
  87      Omaha                          7            4         2.29           581
  88      Oak Brook                      5            7         2.29           593
  89      Charleston                     4            8         2.28           624
  90      Springfield                    1            6         2.27           355
  91      Elkins Park                    3           10         2.27           397
  92      Morgantown                     3            9         2.26           404
  93      Louisville                     4            9         2.25           525
  94      Atlanta North                  4           10         2.25           609
  95      Portland                       1            5         2.24           278
  96      Salt Lake City                 8            6         2.24           336
  97      Voorhees                       2            7         2.24           467
  98      New Orleans                    6           10         2.23           366
  99      Billings                       8            5         2.23           440
  100     San Rafael                     9            7         2.23           493
  101     Knoxville                      4           11         2.23           496
  102     Dallas North                   6           14         2.22           362
  103     Hartford                       1            7         2.22           407
  104     Florence                       4            7         2.22           514
  105     Dover                          3            5         2.21           370
  106     Las Vegas                      9            3         2.21           477
  107     Boston                         1           14         2.19           346
  108     Downey                         9            5         2.19           481
  109     Fargo                          8            5         2.17           469
  110     Seattle                        10          16         2.17           508
  111     Philadelphia                   3           10         2.13           365
  112     Washington                     3            5         2.13           489
  113     Roanoke                        3            8         2.10           454
  114     Denver                         8           11         2.10           502
  115     Detroit                        5           12         2.10           663
  116     Peoria                         5            8         2.08           617
  117     Santa Barbara                  9            3         2.07           468
  118     Kansas City                    7           11         2.06           629


Hearing Office Backlogs in Missouri (A-12-10-21039)                               C-3
                                                            Dispositions    Average
                                                  Number    per Day per    Processing
 Count          Hearing Office         Region     of ALJs       ALJ           Time
  119     Baltimore                      3           10         2.05           500
  120     Tampa                          4           14         2.03           581
  121     Dayton                         5            7         2.03           640
  122     Fresno                         9            8         2.02           516
  123     Evanston                       5           10         2.01           499
  124     Springfield                    7            6         2.01           654
  125     Oklahoma City                  6           13         2.00           432
  126     Orange                         9            8         2.00           474
  127     Portland                       10          10         1.99           652
  128     Indianapolis                   5           12         1.98           713
  129     New Haven                      1            5         1.97           392
  130     Cleveland                      5           13         1.93           590
  131     Buffalo                        2           14         1.92           583
  132     Milwaukee                      5           12         1.85           626
  133     Pasadena                       9            7         1.81           484
  134     White Plains                   2            7         1.75           447
  135     Cincinnati                     5           13         1.74           648
  136     Madison                        5            2         1.66           668
  137     Chicago                        5            8         1.63           610
  138     Queens                         2            7         1.59           472
  139     Oakland                        9            8         1.58           538
  140     Columbus                       5           11         1.56           650
  141     San Diego                      9            9         1.45           537
  142     Miami                          4           11         1.43           587




Hearing Office Backlogs in Missouri (A-12-10-21039)                               C-4
                                                                              Appendix D

Planned New Hearing Offices and National
Hearing Center
The Office of Disability Adjudication and Review (ODAR) plans to open 13 new hearing
offices in Fiscal Year (FY) 2010 (see Figure D-1 and Table D-1). In terms of the Kansas
City Region, ODAR plans to open one new hearing office in Topeka, Kansas, in
FY 2010 and another in Columbia, Missouri, in FY 2011 (not shown below). In addition,
St. Louis, Missouri will be the location of ODAR’s fifth National Hearing Center (NHC) in
FY 2010. 1

Figure D-1: Planned New Hearing Offices and National Hearing Center in FY 2010




1
 The NHC workload is directed by ODAR Headquarters and is not under the control of the Regional
Chief ALJ, as is the case with hearing offices.


Hearing Office Backlogs in Missouri (A-12-10-21039)                                               D-1
            Table D-1: New Hearing Offices and National Hearing Center
                              Planned for FY 2010
                                            Administrative       Planned 2010
                      Location               Law Judges    Staff Opening Date
             Anchorage, Alaska                    2         11     February
             St. Louis (NHC)                     18         NA       May
             St. Petersburg, Florida             11         54       May
             Akron, Ohio                         12         58       June
             Livonia, Michigan                   10         49       June
             Madison, Wisconsin                   6         30       June
             Phoenix, Arizona                     8         39       June
             Tallahassee, Florida                 5         45       June
             Toledo, Ohio                        10         49       June
             Covington, Georgia                   9         45       July
             Topeka, Kansas                       5         26       July
             Fayetteville, North Carolina         9         58      August
             Mt. Pleasant, Michigan              12         58      August
             Valparaiso, Indiana                 12         63      August
                        TOTAL                   129        585
.




Hearing Office Backlogs in Missouri (A-12-10-21039)                             D-2
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and
Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
